                                  Office of Inspector General
                                 Corporation for National and
                                          Community Service




     AGREED-UPON PROCEDURES REVIEW OF
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   GRANTS TO
             CITIZEN SCHOOLS, INC.

              OIG REPORT NUMBER 09-14




                         Prepared by:

                   Regis & Associates, PC
                   1400 Eye Street, N.W.
                   Washington, DC 20005




 This report was issued to Corporation management on May 13, 2009. Under the
 laws and regulations governing audit follow-up, the Corporation is to make final
 management decisions on the report’s findings and recommendations no later
 than November 13, 2009, and complete its corrective actions by May 13, 2010.
 Consequently, the reported findings do not necessarily represent the final
 resolution of the issues presented.
                        OFFICE OF INSPECTOR GENERAL
                                         May 13, 2009


TO:           Lois Nembhard
              Acting Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 09-14, Agreed-Upon Procedures Review of Corporation for
              National and Community Service Grants to Citizen Schools, Inc.

Attached is the final report for the above-noted agreed-upon procedures review. We
contracted with the independent certified public accounting firm of Regis & Associates, PC
(Regis) to perform the procedures. The contract required Regis to conduct its review in
accordance with generally accepted government auditing standards.

Regis is responsible for the attached report, dated December 19, 2008, and the conclusions
expressed therein. We do not express opinions on the Schedule of Awards, Claimed and
Questioned Costs, conclusions on the effectiveness of internal controls, or the grantee’s
compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by November 13, 2009. Notice of final action is due by May 13, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ron
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:   George Chu, Chief Financial Officer, Citizen Schools, Inc.
      William Anderson, Acting Chief Financial Officer, CNCS
      Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
       Management, CNCS
      Sherry Blue, Audit Resolution Coordinator, CNCS
      Peter Regis, President, Regis & Associates, PC




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps   AmeriCorps   Learn and Serve America
                    AGREED-UPON PROCEDURES REVIEW OF
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            GRANTS AWARDED TO
                           CITIZEN SCHOOLS, INC.


Table of Contents

                                                                                                                                      Page

Executive Summary ...........................................................................................................          1

       Summary of Results...................................................................................................           1

       Agreed-Upon-Procedures Scope ...............................................................................                    2

       Background ...............................................................................................................      2


Independent Accountants’ Report on Applying Agreed-Upon Procedures........................ 4

       Results........................................................................................................................ 5

             Exhibit A: ...........................................................................................................    6

                  Schedule of Awards, Claimed and Questioned Costs ...................................                                 6

                  Exception Types and Questioned Amounts ..................................................                            6

             Exhibit B: Compliance and Internal Control Issues ........................................... 7

Appendix A -- Citizen Schools, Inc.’s Response to the Draft Report

Appendix B -- Corporation for National and Community Service’s
            Response to the Draft Report
EXECUTIVE SUMMARY

Summary of Results

The Office of Inspector General (OIG), Corporation for National and Community Service
(the Corporation), contracted with Regis and Associates, PC to perform agreed-upon
procedures (AUP) for cost testing, review of grantee-operating programs, and compliance
testing of Corporation-funded Federal assistance provided to Citizen Schools, Inc. (Citizen
Schools). As a result of applying these procedures, we questioned $38,662 in claimed costs,
education awards, and interest forbearance. The detailed results of our agreed-upon
procedures on claimed costs and education awards are presented in Exhibit A, Schedule of
Awards, Claimed and Questioned Costs. A questioned cost is an alleged violation of a
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; a finding that, at the time of the review, such
cost was not supported by adequate documentation, or a finding that the expenditure of funds
for the intended purpose was unnecessary or unreasonable.

Costs Claimed and Questioned Amount. Citizen Schools claimed total grant costs of
$2,574,855 during the period tested. As a result of testing a judgmental sample of
transactions, we questioned the amounts shown below.

                                                                Amount
                                                                Claimed
                       Award          Funding       AUP         During            Questioned
    Program            Number        Authorized    Period      AUP Period          Amount
                                                  08/01/05-
AmeriCorps National 05NDHMA001 $        2,707,238 07/31/08 $ 2,574,855        $     38,662

Details on questioned amounts are discussed in the Independent Accountants’ Report on
Applying Agreed-Upon Procedures.

Compliance and Internal Control. The detailed results of our AUP showed instances of
non-compliance with grant provisions, regulations, or Office of Management and Budget
(OMB) circulars. Those instances of non-compliance are shown below, and in Exhibit B in
the Compliance and Internal Control section of the Independent Accountants’ Report on
Applying Agreed-Upon Procedures.

      Labor Charges to grant were based on budgets and allocated levels of effort without
       after the fact confirmation of those efforts.
      The draft policy governing record retention is not finalized.
      Citizen Schools did not notify and obtain written approval for key personnel changes
       from the Corporation.
      Program compliance requirements were not followed as noted below:
           o Member files did not include documentation to support citizenship
           o Member files did not have documentation to support the conduct of criminal
               background checks


                                             1
           o Member file did not include documentation to support eligibility
           o Member contracts did not include required non-discrimination clauses on civil
             rights and equal opportunity
           o Mid-term and end-of-term evaluations were missing or incomplete
           o Incomplete and late submission of enrollment and exit forms
           o Service Hours were recorded by members before contracts were signed
           o Member timesheets contained irregularities
           o Lack of pre-service orientation documentation


Exit Conference. The contents of this report were discussed with the Corporation and
Citizen Schools at an exit conference held in Boston, MA, on March 18, 2009. We provided
a draft of this report to Citizen Schools and the Corporation on April 7, 2009 for comment.
Citizen Schools’ response to the findings and recommendations in the draft report are
included as Appendix A, and summarized in each finding. The Corporation did not respond
to the individual findings and recommendations. Its response is included as Appendix B.

Agreed-Upon Procedures Scope

Our procedures covered the allowability, allocability, and reasonableness of financial
transactions claimed under funding provided by the Corporation for the award, as well as
grant match costs for the period shown on Page 1.

In addition, the AUP had the objectives of determining whether members enrolled in the
program are eligible, are performing service in accordance with grant terms and conditions
and, if certified for an education award, have performed the minimum service hours required
to become eligible for the award

We also performed tests to determine compliance with grant terms and provisions. We
performed our procedures during the period October 10 through December 19, 2008.

The OIG’s agreed-upon procedures program, dated July 2008, provides guidance for
understanding Citizen Schools; reconciling claimed and matched costs to accounting records;
testing compliance with provisions of the grant; and testing claimed grant and match costs.
We used judgmental sampling for the testing. These procedures are described in more detail
on page 3, in the Independent Accountants’ Report on Applying Agreed-Upon Procedures.

Background

The Corporation supports national and community service programs that provide full- and
part-time opportunities for Americans to engage in service that fosters civic responsibility,
strengthens communities, and provides educational opportunities for those who make a
commitment to service. The AmeriCorps program is one of the Corporation’s three major
service initiatives. Approximately three-quarters of all AmeriCorps grant funding goes to
governor-appointed State service commissions, which award competitive grants to nonprofit
groups that then recruit AmeriCorps members to respond to local needs. The Corporation



                                              2
distributes most of the balance of its funding directly to multi-State and national
organizations, such as Citizen Schools, through a competitive grant process.

Citizen Schools, a non-profit organization registered in the Commonwealth of Massachusetts
in 1995, administers a National Teaching Fellowship Program with funding from the
Corporation.

The National Teaching Fellowship is a service program offering a two-year leadership
development experience, including service as a team leader at a Citizen Schools campus. It
also offers professional development with a partner organization in the community and the
opportunity for optional enrollment in a Master's program in out-of-school learning.

The Fellowship is designed to provide hands-on leadership development to people of varied
backgrounds, who have high potential as educators and community builders. The Teaching
Fellowship is a paid position in which members receive an annual stipend and a benefit
package, which includes health care and dental coverage, retirement benefits, training, and a
transportation allowance. Upon successful completion of service, members are eligible to
receive an education award, which can be applied towards outstanding Federal student loans
or the cost of attending a college or university.

The Citizen Schools National Teaching Fellowship program is offered in California,
Massachusetts, New Jersey, New Mexico, New York, North Carolina and Texas.




                                               3
   MANAGEMENT CONSULTANTS &
  CERTIFIED PUBLIC ACCOUNTANTS




                       INDEPENDENT ACCOUNTANTS’ REPORT ON
                         APPLYING AGREED-UPON PROCEDURES

 We performed the procedures described below, which were agreed to by the OIG, solely to
 assist the OIG in cost testing, review of grantee operated programs, and compliance testing of
 Corporation-funded Federal assistance provided to Citizen Schools for the award and periods
 listed in the table below. This AUP engagement was performed in accordance with standards
 established by the American Institute of Certified Public Accountants and generally accepted
 government auditing standards. The sufficiency of these procedures is solely the
 responsibility of the OIG. Consequently, we make no representation regarding the
 sufficiency of the procedures described below, either for the purpose for which this report
 has been requested or for any other purpose.

                                                                       Amount
                                                                       Claimed
                             Award          Funding         AUP        During             Questioned
     Program                 Number        Authorized      Period     AUP Period           Amount
                                                          08/01/05-
AmeriCorps National      05NDHMA001       $   2,707,238   07/31/08 $      2,574,855   $     38,662

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not express
 such an opinion. Had we performed other procedures, other matters might have come to our
 attention that would have been reported to you.

 The procedures that we performed included:

         Obtaining an understanding of Citizen Schools operations;

         Reconciling claimed and matched grant costs to the grantee’s accounting systems ;

         Testing a sample of member files to verify that documents supported member
          eligibility to serve, and allowability of living allowances and education awards;

         Testing Citizen Schools’ compliance with certain grant provisions and award terms
          and conditions; and

         Testing claimed and matched grant costs to ensure:

          i.      Proper recording of the AmeriCorps grant;

          ii.     Costs were properly matched; and



        1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
       iii.      Costs were allowable and supported in accordance with applicable
                 regulations, OMB circulars, grant provisions, and award terms and conditions.

Results

We questioned Federal-shared costs of $24,466, education awards of $14,175, and interest
forbearance of $21. The questioned costs, education awards, and interest forbearance are
summarized in Exhibit A, Schedule of Awards, Claimed and Questioned Costs. The
compliance and internal control testing results are summarized in Exhibit B. Issues identified
include the following:

      Labor charges to grant were based on budgets and allocated levels of effort without
       after the fact confirmation of those efforts.

      The draft policy governing record retention is not finalized.

      Citizen Schools did not notify and obtain written approval for key personnel changes
       from the Corporation.

      Program compliance requirements were not followed as noted below:

              o Member files did not include documentation to support citizenship
              o Member files did not have documentation to support the conduct of criminal
                background checks
              o Member file did not include documentation to support eligibility
              o Member contracts did not include required non-discrimination clauses on civil
                rights and equal opportunity
              o Mid-term and end-of-term evaluations were missing or incomplete
              o Incomplete and late submission of enrollment and exit forms
              o Service hours were recorded by members before contracts were signed
              o Member timesheets contained irregularities
              o Lack of pre-service orientation documentation




                                               5
                                                                                    EXHIBIT A



                               CITIZEN SCHOOLS, INC.

               SCHEDULE OF AWARDS, CLAIMED AND QUESTIONED COSTS

                                                                     Amount
                                                                     Claimed
                         Award           Funding          AUP        During           Questioned
     Program             Number         Authorized       Period     AUP Period          Costs
                                                        08/01/05-
AmeriCorps National   05NDHMA001       $   2,707,238    07/31/08    $   2,574,855      $38,662




                      EXCEPTION TYPES AND QUESTIONED AMOUNTS
                                                   Questioned
                                                    Share of                 Questioned
                                                    Member      Questioned     Interest      Total
                                     Number          Living     Education    Forbearance   Questioned
     Exception Type               of Individuals   Allowance     Awards        Amount       Amount*

Citizenship/Lawful Legal Resident 4 Members          $24,466     $14,175        $21         $38,662
Total Questioned Amount                              $24,466     $14,175        $21         $38,662


*Details of this questioned amount are more fully described in Finding 4 on Page 11.




                                               6
                                                                                 EXHIBIT B

                                CITIZEN SCHOOLS, INC.

                       COMPLIANCE AND INTERNAL CONTROL ISSUES

Finding 1. Labor charges to grant were based on budgets and allocated levels of effort,
           without after-the-fact confirmation of those efforts

Our test procedures included a review of the timesheets of six salaried employees who had
20 percent or more of their salaries charged to the AmeriCorps National Direct grant
05NDHMA001, and of five campus directors whose wages were charged to the same grant.

We found that the salaried employees were required to complete timesheets only when taking
vacation or sick leave, and that timesheets of those employees, when completed, and those of
the campus directors, did not show hours worked. We also found that charges to the grant
were based on budgets for the salaried employees and allocated levels of effort for the
campus directors for each reporting period.

In addition, we found that Citizen Schools’ management was unable to provide the
timesheets of one campus director to support charges for the pay periods ending 6/30/08 and
7/15/08. However, the report on activities performed during these periods showed that the
director worked during these periods. Alternative procedures allowed us to conclude that the
costs claimed were equitable, by reviewing daily activity logs of salaried employees and
campus directors. The activity logs showed that applied levels of effort were reasonable and,
therefore, resulted in no questioned costs. However, Citizen Schools’ current timekeeping
practice is not in accordance with the requirements of the grant provisions or OMB Circular
A-122, codified at 2 CFR Part 230.

Preparation of timesheets that show actual after-the-fact time spent on activities provides
adequate support for charges to the grant. Furthermore, there is an increased likelihood that
costs will be claimed in accordance with grant provisions and cost principles.

Criteria

Pursuant to OMB Circular A-122, codified at 2 CFR Part 230, Cost Principles for Non-Profit
Organizations, Paragraph 7, Subparagraph M.2 of Attachment B, states in part, “Reports
reflecting the distribution of activity of each employee must be maintained for all staff
members (professionals and nonprofessionals) whose compensation is charged, in whole or
in part, directly to awards. Reports maintained by non-profit organizations to satisfy these
requirements must meet the following standards: (a) The reports must reflect an after-the-
fact determination of the actual activity of each employee. Budget estimates (i.e., estimates
determined before the services are performed) do not qualify as support for charges to
awards.”

In addition, part (d) of Subparagraph M.2 states, “The reports must be prepared at least
monthly and must coincide with one or more pay periods.”


                                              7
Recommendations

We recommend that the Corporation ensure and verify that Citizen Schools:

       1a.     Implements a timekeeping system that documents actual labor costs and after-
               the-fact time charged to AmeriCorps grants.

       1b.     Maintains timesheets for all employees whose compensation and services are
               directly charged to the award. The timesheets should be prepared on a
               monthly basis at a minimum, and must coincide with one or more pay periods.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. It indicated that it is
currently testing an electronic timesheet system that will allow all staff to allocate time to
various projects or activities, including actual labor allocations and after-the-fact time
charged to AmeriCorps grants. The system tracks hours on a daily basis, and timecards will
be approved and submitted monthly for salaried staff and AmeriCorps members on stipend,
and weekly for hourly staff.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


Finding 2.     The draft policy governing record retention should be finalized

During our review, we found that Citizen Schools did not have an approved written policy
governing record retention. The grantee does have a draft version of a retention policy,
which will be finalized upon review by the legal department and approved by the board of
directors. Citizen Schools stated that employees currently adhere to the requirements of the
draft version.

Maintaining adequate supporting documentation is necessary to track expenses, provide
support for program accomplishments, and prepare for audits and reviews. A formal policy
on record retention would provide uniform guidance to all employees, and would facilitate
the retention of adequate records for the length of time required by the Corporation’s
regulations. Citizen Schools said that the lack of a written retention policy was an oversight,
and maintained that records are kept for more than three years, as required by the
Corporation.

Criteria

The 2007 AmeriCorps Grant Provisions, Section V.E., General Provisions, Retention of
Records, states, “The grantee must retain and make available all financial records, supporting



                                               8
documentation, statistical records, evaluation and program performance data, member
information and personnel records, for 3 years from the date of the submission of the final
Financial Status Report. If an audit is started prior to the expiration of the 3-year period, the
records must be retained until the audit findings involving the records have been resolved and
final action taken.”

Recommendations

We recommend that the Corporation:

        2a.    Ensure that Citizen Schools implements an officially approved record
               retention policy that requires the maintenance of all financial records,
               supporting documentation, statistical records, evaluation and program
               performance data, member information and personnel records, for three years
               from the date of the submission of the final FSR.

        2b.    Ensure that all grantee and subgrantee employees are made aware of the
               record retention policy.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools drafted a
record retention policy several months ago in recognition of the AmeriCorps requirements,
and anticipates approval and implementation by September 2009.

Auditor’s Comments

The actions proposed by Citizen Schools should be adequate to address the finding.


Finding 3.   Citizen Schools did not notify and obtain written approval for key
personnel changes from the Corporation

We found that Citizen Schools did not notify and obtain written approval from the
Corporation for key personnel changes that occurred since November 2005. Specifically,
Citizen Schools replaced personnel in the following positions during the term of the grant
without receiving prior approval from the Corporation:

   1.   The national director of the Teaching Fellowship Program
   2.   Two deputy directors of the Teaching Fellowship Program
   3.   Chief Financial Officer
   4.   Financial Manager

A process for notifying and obtaining the requisite approval would have provided the
Corporation with opportunities to assess qualifications of the individuals involved in the
administration and financial management of the grant funds. Citizen Schools’ management



                                               9
said they discussed the personnel changes with the appropriate Corporation personnel.
However, they were not aware of the need for formal notification and approval.

Criteria

Title 45 CFR § 2543.25, Revision of Budget and Program Plans, states in part (c), “For non
construction awards, recipients shall request prior approvals from Federal awarding agencies
for one or more of the following program or budget related reasons:” including “(2) Change
in a key person specified in the application or award document.”

The 2007 AmeriCorps Grant Provisions, Section IV.M., AmeriCorps Special Provisions,
Budget and Programmatic Changes, states in part, “1. Programmatic Changes. The State
Commission or Parent Organization must first obtain the prior written approval of the
AmeriCorps Program Office before making the following changes in the approved Program:

* * *
b. Substantial changes in the level of participant supervision;

* * *
4. Approvals of Programmatic and Budget Changes. The Corporation’s Grants Officers are
the only officials who have the authority to change the requirements of the grant. The Grants
Officers will execute written amendments, and grantees should not assume approvals have
been granted unless documentation from the Grants Office has been received.”

Recommendation

We recommend that the Corporation:

       3.      Ensure that Citizen Schools notifies and receives approval for key personnel
               changes from the Corporation before their time is charged to the grant.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools indicated
there was no formal approval mechanism (e.g., form, letter, other type of documentation)
allowing Citizen Schools to notify the Corporation, or for the Corporation to approve the
changes. It indicated that it will work with the Corporation’s program officer to define an
appropriate approval mechanism for personnel changes moving forward.

Auditor’s Comments

The actions proposed by Citizen Schools should be adequate to address the finding.




                                               10
Finding 4. Member files did not include documentation to support citizenship

Four files lacked adequate supporting documentation to substantiate that the members had
U.S citizenship or legal residency. We questioned $38,662 in claimed costs, education
awards, and interest forbearance for these members. The details of this questioned amount
are shown in Exhibit A of this report.

Citizen Schools did not comply with AmeriCorps regulations to ensure that applicants met all
AmeriCorps eligibility requirements before starting service. Consequently, participants
received living allowances and education awards to which they were not entitled.

Criteria

The 2007 AmeriCorps Grant Provisions, Section IV.L., AmeriCorps Special Provisions,
Member Records and Confidentiality, states in part 2,

       To verify U.S. citizenship, U.S. national status, or U.S. lawful permanent
       resident alien status, the grantee must obtain and maintain documentation as
       required by 45 CFR § 2522.200 (c). The Corporation does not require programs
       to make and retain copies of the actual documents used to confirm age or
       citizenship eligibility requirements, such as a driver’s license, or birth
       certificate, as long as the grantee has a consistent practice of identifying the
       documents that were reviewed and maintaining a record of the review.

Recommendations

We recommend that the Corporation:

       4a.   Disallow and recover $38,662 in claimed costs, education awards, and interest
             forbearance for members determined to be ineligible;

       4b.   Require Citizen Schools to follow the AmeriCorps regulations to ensure that
             adequate documentation is maintained to verify member eligibility; and

       4c.   Ensure that documentation of citizenship or legal residency is maintained in
             member files for members who are currently serving, before the members are
             certified for education awards.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated it has
a policy in place whereby hiring managers, in conjunction with human resources staff, are
required to sign off on all eligibility documents required by the Corporation, that provides
proof of citizenship or permanent residency. However, Citizen Schools acknowledged that
documentation and record keeping regarding member files should be improved. It plans to
implement various corrective actions by September 2009, including hiring an AmeriCorps



                                             11
compliance specialist to support member administration, and revising and clarifying member
file policies and procedures.

Citizen Schools also stated that it has received proof of citizenship for three of the four
members whose eligibilities were questioned by the auditors. This proof of citizenship will
be sent to the Corporation by May 15, 2009.

Auditor’s Comments

The actions proposed by Citizen Schools should be adequate to address the finding.
However, the claimed costs, education awards, and interest forbearance related to these
members should be resolved by the Corporation.


Finding 5. Member files did not have documentation to support the conduct of
           criminal background checks

Three files (seven percent of the items sampled) did not contain documentation verifying that
criminal background checks were performed. These members began their service prior to the
November 23, 2007, change in AmeriCorps regulations.

Citizen Schools did not comply with AmeriCorps regulations to ensure that prospective
members did not have criminal records that would affect their eligibility to participate in the
program. Citizen Schools’ management said that criminal background checks were
performed for these members but the records were misplaced.

Not obtaining required criminal background checks increases the risk that a member, who
should not have been serving children or persons age sixty and older, could have direct
contact with those groups, resulting in a potential liability for Citizen Schools and the
Corporation, and potentially endangering program beneficiaries.

Criteria

Title 45 CFR § 2540.200 and 2522.205, To whom must I apply suitability criteria relating to
criminal history?, states:

       You must apply suitability criteria relating to criminal history to an individual
       applying for, or serving in, a position for which an individual receives a
       Corporation grant-funded living allowance, stipend, education award, salary, or
       other remuneration, and which involves recurring access to children, persons
       age 60 and older, or individuals with disabilities.




                                              12
Recommendation

We recommend that the Corporation:

       5.     Require Citizen Schools to ensure that criminal background checks are
              performed for all members serving the groups identified above, and that
              records are properly maintained to support compliance.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated it has
a policy in place whereby hiring managers are required to ensure a criminal background
check, pursuant to the laws of the state in which the member serves and consistent with
AmeriCorps regulations, has been properly reviewed before a member is enrolled. Any
member who does not complete a background check or who has an unsatisfactory result will
not be enrolled or allowed to serve in any capacity. However, Citizen Schools acknowledged
that documentation and record keeping regarding member files should be improved. It plans
to implement various corrective actions by September 2009, including hiring an AmeriCorps
compliance specialist to support member administration, and clarifying its policies and
procedures for member files.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


Finding 6.    Member file did not include documentation to support eligibility

One file did not have documentation to support that the member earned a high-school
diploma or its equivalent, with a written declaration under penalty of law that he or she met
the AmeriCorps member eligibility requirements. We also found that the member was not 17
years of age at the time of enrollment, and that parental consent allowing the member to
serve was not documented.

Citizen Schools did not comply with AmeriCorps regulations to ensure that the applicant met
AmeriCorps eligibility requirements before starting service. Consequently, the member may
have received an education award to which he/she was not entitled. Citizen Schools offered
no reason why parental consent was not obtained, and believes that this was an isolated
incident.

Criteria

Title 45 CFR § 2522.200 What are the eligibility requirements for an AmeriCorps
participant? states:




                                             13
       (a) Eligibility. An AmeriCorps participant must—

       (1)(i) Be at least 17 years of age at the commencement of service; or

       (ii) Be an out-of-school youth 16 years of age at the commencement of service
       participating in a program described in §2522.110(b)(3) or (g);

       (2)(i) Have a high school diploma or its equivalent; or

       (ii) Not have dropped out of elementary or secondary school to enroll as an
       AmeriCorps participant and must agree to obtain a high school diploma or its
       equivalent prior to using the education award.”

Furthermore, paragraph (b) of the same CFR section states,

       Written declaration regarding high school diploma sufficient for enrollment. For
       purposes of enrollment, if an individual provides a written declaration under
       penalty of law that he or she meets the requirements in paragraph (a) of this
       section relating to high school education, a program need not obtain additional
       documentation of that fact.

The 2007 AmeriCorps Grant Provisions, Section IV.C., AmeriCorps Special Provisions,
Parental Consent, states in part 6,

       Before enrolling in a Program, individuals under eighteen years of age must
       provide written consent from a parent or legal guardian.

Recommendations

We recommend that the Corporation:

       6a.   Require Citizen Schools to comply with AmeriCorps regulations to ensure that
             adequate documentation is maintained to verify member eligibility, including
             parental consent for members under age 17 where required, or that Citizen
             Schools require members to provide a written declaration under penalty of law
             that they meet the education requirements; and

       6b.   Ensure that, for members who are currently serving, the grantee maintains
             documentation of high school diplomas or other equivalency certifications in
             member files before the members are certified for education awards.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated it has
a policy in place requiring its program managers to sign off on all eligibility documents
required by the Corporation, including parental consent where required. Citizen Schools



                                             14
acknowledged that documentation and record keeping regarding member files will be
improved by corrective actions to be completed by September 2009.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


Finding 7. Member contracts did not include required non-discrimination clauses on
           civil rights and equal opportunity provisions

The member contract used by Citizen Schools did not include the AmeriCorps requirement
on Civil Rights and Equal Opportunity. All 44 member files tested lacked these
requirements.

Citizen Schools did not comply with AmeriCorps grant provisions relating to non-
discrimination. Citizen Schools said that the lack of the clauses in member contracts was due
to its misunderstanding of the specific requirement that the clauses be in the contracts. By
not including these requirements in member contracts, members may not be aware of their
rights under Civil Rights and Equal Opportunity provisions.

Criteria

The 2007 AmeriCorps Grant Provisions, Section V.G., AmeriCorps General Provisions,
Non-Discrimination, states in part 3:

       The grantee must include information on civil rights requirements, complaint
       procedures and the rights of beneficiaries in member contracts, handbooks,
       manuals, pamphlets, and post in prominent locations, as appropriate.

Recommendation

We recommend that the Corporation:

       7.      Require Citizen Schools to include the civil rights and equal opportunity
               provisions in its member contracts.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated it has
revised the member contracts to include the required clauses. Citizen Schools also stated that
it has already included this provision as part of member orientation training.




                                             15
Auditor’s Comments

The actions proposed by Citizen Schools should be adequate to address the finding.
However, the Corporation should follow up to ensure that the planned actions are
implemented.


Finding 8.     Mid-term and end-of-term evaluations were missing or incomplete

Six member files lacked mid-term evaluations, and 16 files lacked end-of-term evaluations.
Nine files lacked both mid and end-of-term evaluations, three members’ end-of-term
evaluations were not signed by the member or supervisor, and one member’s mid-term
evaluation was not signed by the campus director.

The table below summarizes the instances of missing documentation:

                               Exception Type                       Instances
              Members’ files lacked mid-term evaluations                 6
              Members’ files lacked end-of-term evaluations             16
              Members’ files lacked bi-annual evaluations                9
              Evaluations lacked necessary signatures                   4

 Citizen Schools did not comply with the AmeriCorps grant provisions requiring performance
review and evaluation of members. Citizen Schools said the evaluations were either missing
or not performed. Without evaluations, Citizen Schools may not be able to determine
whether a member satisfactorily completed his/her term of service, is eligible for an
education award, or is eligible to serve a second term.

Criteria

The 2007 AmeriCorps Grant Provisions, Section IV.D., AmeriCorps Special Provisions,
Training, Supervision and Support, states in part 6, “Performance Reviews. The grantee
must conduct and keep a record of at least a mid-term and end-of-term written evaluation of
each member's performance for Full and Half-Time members and an end-of-term written
evaluation for less than Half-time members.”

Title 45 CFR § 2522.220 (c), Eligibility for second term, states:

       A participant will only be eligible to serve a second or additional term of service
       if that individual has received satisfactory performance review(s) for any previous
       term(s) of service in accordance with the requirements of paragraph (d) of this
       section. Mere eligibility for a second or further term of service in no way
       guarantees a participant selection or placement.




                                              16
Recommendation

We recommend that the Corporation:

        8.      Ensure that Citizen Schools strengthens its internal control policies and
                procedures to comply with the mid- and end-of-term evaluation requirements
                of the grant provisions. The Corporation should follow up to verify that
                required evaluations were completed for all members.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated that it
will integrate the member evaluation process into its overall performance management
systems to facilitate tracking, compliance and documentation.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


Finding 9.      Incomplete and late submission of enrollment and exit forms

Our review of 44 member files showed the following:

                                                                         Program Year
                                                                 2005-       2006-    2007-
                          Exception Type                         2006         2007    2008    Total
Enrollment and exit forms were missing                             1            0       0       1
Third page of enrollment forms were missing                       11            0       0      11
Enrollment forms were not approved in WBRS within 30 days of
members starting service                                          1           10        9      20
Exit forms were not approved in WBRS within 30 days of members
ending service                                                    3            2        3      8
Enrollment forms were not signed by or dated by members           0            3        0      3
Enrollment form was incomplete                                    0            1        0      1
Exit form was incomplete                                          1            0        0      1

Citizen Schools did not comply with AmeriCorps grant provisions that require complete and
timely reporting on member history. Complete enrollment and exit forms are necessary to
maintain accurate member information and enable the Corporation to monitor member
service history.

Criteria

The 2007 AmeriCorps Grants Provisions, Section IV.N., AmeriCorps Special Provisions,
Reporting Requirements, states in part 2:


                                                 17
     AmeriCorps Member-Related Forms. The grantee is required to submit the
     following documents to the National Service Trust at the Corporation on
     forms provided by the Corporation. Grantees and sub-grantees may use
     WBRS to submit these forms electronically. Programs using WBRS must
     also maintain hard copies of the forms.

         a. Enrollment Forms. Enrollment forms must be submitted no later than
         30 days after a member is enrolled.

         *    *     *

         c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
         Service Forms must be submitted no later than 30 days after a member
         exits the program or finishes his/her term of service.

Recommendation

We recommend that the Corporation:

       9.     Ensure that Citizen Schools strengthens its internal control policies and
              procedures by completing and submitting enrollment and exit forms on a
              timely basis.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated that it
is strengthening its internal controls, policies and procedures regarding timely completion
and submission of enrollment and exit forms to ensure forms are processed and approved
within the deadline.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


Finding 10.       Service hours were recorded by members before contracts were signed

Our review of 44 member files found that 18 members began serving and recording service
hours before they had signed member contracts. We did not question the education awards
because the members who received awards earned sufficient hours after the contracts were
signed to be eligible for the awards.

Citizen Schools did not comply with AmeriCorps grant provisions requiring fulfillment of
given criteria prior to members accumulating service members. Applicants do not become



                                             18
members until they sign AmeriCorps contracts. Applicants who record service time before
contracts are in place may receive benefits, living allowances, and education awards and
interest forbearance to which they are not entitled.

Criteria

The 2007 AmeriCorps Grant Provisions, Section IV.C., AmeriCorps Special Provisions,
Member Enrollment, states:

         1. Member Enrollment Procedures.

         a. An individual is enrolled as an AmeriCorps member when all of the
            following have occurred:

            i.     He or she has signed a member contract;
            ii.    The program has verified the individual's eligibility to serve;
            iii.   The individual has begun a term of service; and
            iv.    The program has approved the member enrollment form in WBRS.

         b. Prior to enrolling a member in AmeriCorps, programs make
            commitments to individuals to serve. A commitment is defined as
            signing a member contract with an individual or otherwise entering
            into a legally enforceable commitment as determined by state law.

Recommendation

We recommend that the Corporation:

   10.     Ensure that Citizen Schools permits only those persons meeting the criteria of an
           AmeriCorps member to record hours of service. The Corporation should follow up
           to ensure compliance.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated that it
will closely monitor member contract compliance, and clarify policies regarding hours of
service with key staff, including member supervisors.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.




                                               19
Finding 11.   Member timesheets contained irregularities

We found the following in our review of 44 member files with 451 timesheets:

      Forty-two members’ timesheets were not dated by members and/or supervisors, and
       were not approved within 30 days of the end of the reporting period.
      Hours recorded on 413 timesheets for 38 members did not agree with hours posted in
       WBRS.

Citizen Schools did not comply with AmeriCorps policy for properly completing timesheets.
Its procedures for timesheet preparation did not include a quality assurance review before
data was entered into WBRS, or reconciliation of hours entered into WBRS with timesheets.
However, Citizen Schools said it has recently begun to review timesheets and reconcile them
to WBRS. Inaccurate timekeeping records increase the risk of participants receiving
education awards for which they are not eligible.

Criteria

The 2007 AmeriCorps Grant Provisions, Section IV.C. AmeriCorps Special Provisions,
Member Enrollment states in part 2:

       AmeriCorps Members. The grantee must keep time and attendance records on all
       AmeriCorps members in order to document their eligibility for in-service and
       post-service benefits. Time and attendance records must be signed and dated by
       both the member and an individual with oversight responsibilities for the member.

Recommendations

We recommend that the Corporation:

       11.    Require Citizen Schools to strengthen its procedures to ensure that the review
              and approval of service hours is recorded on timesheets, and that timesheets
              are signed by members and supervisors in a timely manner.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated that it
is currently testing an electronic timesheet system that will allow all members to record
service hours and approvals, and provide an audit trail.

Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.




                                            20
Finding 12.    Lack of pre-service orientation documentation

We found that there was no supporting documentation, such as New Member Orientation
sign-in sheets, to substantiate that members attended pre-service orientation sessions.

Citizen Schools stated that while all new members are required to attend orientation, sign-in
sheets are not completed. The retention of sign-in sheets is necessary to substantiate that new
members have participated in orientation.

Criteria

The 2007 AmeriCorps Grant Provisions, Section IV.D., AmeriCorps Special Provisions,
Training, Supervision and Support, states in part 3:

       The grantee must conduct an orientation for members and comply with any pre-
       service orientation or training required by the Corporation. This orientation
       should be designed to enhance member security and sensitivity to the community.
       Orientation should cover member rights and responsibilities, including the
       Program's code of conduct, prohibited activities (including those specified in the
       regulations), requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et
       seq.), suspension and termination from service, grievance procedures, sexual
       harassment, other non-discrimination issues, and other topics as necessary.

Recommendations

We recommend that the Corporation:

       12a.    Ensure that Citizen Schools requires all members to attend orientation
               pursuant to the AmeriCorps provisions.

       12b.    Ensure that Citizen Schools maintains adequate supporting documentation,
               such as New Member Orientation Sign-in Sheets, to substantiate attendance
               by members.

Citizen Schools’ Response

Citizen Schools concurs with the finding and recommendation. Citizen Schools stated that it
conducts a centralized AmeriCorps orientation every year for which it prepares orientation
materials for each member. All members are required to attend and this requirement is
enforced through its AmeriCorps Program Director. However, Citizen Schools agreed that it
has not consistently maintained documentation of member attendance at these sessions. In
the future, it will include a list of attendees at each session.




                                              21
Auditor’s Comments

The actions proposed by Citizen Schools, if implemented, should be adequate to address the
finding.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, Citizen Schools, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Regis and Associates, PC
December 19, 2008




                                            22
        APPENDIX A

    CITIZEN SCHOOLS, INC.
RESPONSE TO THE DRAFT REPORT
                                                                                            308 Congress Street
                                                                                            Boston, MA 02210
                                                                                            tel 617.695.2300
                                                                                            fax 617.695.2379
                                                                                            www.citizenschools.org




                                             April 30, 2009

Stuart Axenfeld
Assistant Inspector General for Audit
Office of Inspector General
1201 New York Avenue, NW
Suite 830
Washington D.C. 20525

Dear Mr. Axenfeld,

        Thank you for the opportunity to comment on this draft report on the Agreed-Upon Procedures
Review of Corporation for National and Community Service Grants Awarded to Citizen Schools, Inc.

         Citizen Schools greatly values its partnership with the Corporation for National and Community
Service (the Corporation) and welcomes the opportunity to enhance our AmeriCorps program and our
systems for programmatic, administrative, and financial management.

        We appreciate that the audit process generated useful learning for our team, and provided
affirmation of the efforts we have invested in program quality and administrative compliance.

 In this letter we offer our responses to the findings in the draft report. We hope these responses
help to clarify our approach to the issues raised, and can lead to a prompt resolution of any
remaining issues.

Thank you for your partnership.


                                        Kind Regards,


                                           (original signed)

                                        George Chu
                                        Chief Financial Officer
                                        Citizen Schools, Inc.
                                        Phone: 617-695-2300 ext 137
                                        Fax: 617-399-5515
                                        georgechu@citizenschools.org
                                        www.citizenschools.org

Cc: Ron Huritz, Audit Manager, Office of Inspector General; Lateef Abassi, Senior Audit Manager, Regis
& Associates PC
Finding 1. Labor charges to the grant were based on budgets and allocated levels of effort, without
           after-the-fact confirmation of those efforts

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure Citizen Schools implements a timekeeping system that documents actual labor costs and
     after-the-fact time charged to AmeriCorps grants.
  b) Ensures Citizen Schools maintains timesheets for all employees whose compensation and
     services are directly charged to the award. The timesheets should be prepared on a monthly
     basis at a minimum, and must coincide with one or more pay periods.

CITIZEN SCHOOLS RESPONSE:
We agree that accurate tracking of staff time charged to AmeriCorps grants is essential, and that detailed
timesheet information by pay period will enhance our ability to do so. Historically, we have set and
monitored staff time allocations through our annual planning process and periodic check-ins with key
staff – and thus were confident the charges to AmeriCorps for these staff were appropriate as concluded
by the audit.

However, our current practice should be improved. To that end, Citizen Schools is currently piloting an
electronic timesheet system (ADP Enterprise eTime). This system will allow all staff to allocate time to
various projects or activities, including actual labor allocations and after-the-fact time charged to
AmeriCorps grants. The system tracks hours on a daily basis, and timecards will be approved and
submitted monthly for salaried staff and stipended AmeriCorps members, and weekly for hourly staff.
The timesheet system will maintain an electronic record of each timesheet and audit trails of all
approvals.

We anticipate implementation by September, 2009.


Finding 2. The draft policy governing record retention should be finalized

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools implements an officially approved record retention policy that
     requires the maintenance of all financial records, supporting documentation, statistical records,
     evaluation and program performance data, member information and personnel records, for three
     years from the date of the submission of the final FSR.
  b) Ensure that all grantee and subgrantee employees are made aware of the record retention policy.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools drafted a record retention policy several months ago in recognition of the requirements of
Sarbanes-Oxley and AmeriCorps. We are currently in the process of vetting this draft with our legal
counsel and auditors and will submit the policy for Board approval at our next Board meeting.

Once approved, we will post the finalized policy on our intranet and integrate the policy into all relevant
trainings and materials.

We anticipate approval and implementation by September, 2009.

Finding 3. Citizen Schools did not notify and obtain written approval for key personnel changes
           from the Corporation




APRIL 30, 2009
PAGE 2 OF 7
AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools notifies and receives approval for key personnel changes from the
     Corporation before their time is charged to the grant.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools has always maintained close communication with its AmeriCorps Program Officer in
regard to key staff changes, including those listed in the audit findings. In all cases, introductions or
notifications were made through the Citizen Schools AmeriCorps Program Director.

However, there was no formal approval mechanism (e.g., form, letter, other type of documentation)
defined for Citizen Schools to officially notify the Corporation, or for the Corporation to officially
approve of the change. We will work with our Program Officer to define an appropriate approval
mechanism for personnel changes moving forward.

We anticipate implementation by July, 2009.


Finding 4. Member files did not include documentation to support citizenship

AUDITOR RECOMMENDS THE CORPORATION:
  a) Disallow and recover $38,662 in claimed costs, education awards, and interest forbearance for
     members determined to be ineligible;
  b) Require Citizen Schools to follow the AmeriCorps regulations to ensure that adequate
     documentation is maintained to verify member eligibility; and
  c) Ensure that documentation of citizenship or legal residency is maintained in member files for
     members who are currently serving, before the members are certified for education awards.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools has a policy in place whereby hiring managers, in conjunction with HR staff, are required
to sign off on all eligibility documents required by the Corporation that provides proof of Citizenship or
permanent residency. This requirement is well documented in our on-boarding procedures and HR
policies and adherence is closely monitored by our HR staff. As a result, we are confident these
documents were submitted for all members.

However, our documentation and record keeping regarding member files should be improved. To this
end, we plan to:
    Integrate recruiting, HR, and AmeriCorps functions under a single chain of supervision to
       facilitate coordination, communication, and accountability regarding member administration
    Hire an AmeriCorps Compliance Specialist to support member administration
    Integrate member file monitoring and management with our broader Finance and HR internal
       audit procedures to raise visibility and accountability regarding member files
    Revise and clarify member file policies and procedures and reiterate to key staff

We anticipate implementation by September, 2009.

Citizen Schools received proof of citizenship for three of the four members whose eligibility
documentation was questioned by the auditors. This proof of Citizenship will be scanned and sent via
email to the Corporation by May 15, 2009. Citizen Schools therefore requests that the Corporation revise




APRIL 30, 2009
PAGE 3 OF 7
the schedule of claimed costs, education awards, and interest forbearance related to these members.
Citizen Schools believes the fourth member to also be a citizen, but was unable to provide documentation
to this effect.


Finding 5. Member files did not have documentation to support the conduct of criminal background
           checks

AUDITOR RECOMMENDS THE CORPORATION:
  a) Require Citizen Schools to ensure that criminal background checks are performed for all
     members serving the groups identified above, and that records are properly maintained to
     support compliance.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools has a policy in place whereby hiring managers, in conjunction with HR staff, are required
to ensure a criminal background check, pursuant to the laws of the state in which the member serves, and
consistent with AmeriCorps regulations, has been properly reviewed before a member is enrolled. Any
member who does not complete a background check or who has an unsatisfactory result will not be
enrolled or allowed to serve in any capacity.

This requirement is also in place for all Citizen Schools employees as well given our work with youth.
This requirement is well documented in our on-boarding procedures and HR policies and adherence is
closely monitored by our HR staff. As a result, we are confident the criminal background checks were
completed for all members.

However, our documentation and record keeping regarding member files should be improved. To this
end, we plan to:
    Integrate recruiting, HR, and AmeriCorps functions under a single chain of supervision to
       facilitate coordination, communication, and accountability regarding member administration
    Hire an AmeriCorps Compliance Specialist to support member administration
    Integrate member file monitoring and management with our broader Finance and HR internal
       audit procedures to raise visibility and accountability regarding member files
    Revise and clarify member file policies and procedures and reiterate to key staff

We anticipate implementation by September, 2009.


Finding 6. Member file did not include documentation to support eligibility

AUDITOR RECOMMENDS THE CORPORATION:
  a) Require Citizen Schools to comply with AmeriCorps regulations to ensure that adequate
     documentation is maintained to verify member eligibility, including parental consent for
     members under age 17 where required, or that Citizen Schools require members to provide a
     written declaration under penalty of law that they meet the education requirements; and
  b) Ensure that, for members who are currently serving, the grantee maintains documentation of
     high school diplomas or other equivalency certifications in member files before the members are
     certified for education awards.

CITIZEN SCHOOLS RESPONSE:




APRIL 30, 2009
PAGE 4 OF 7
Citizen Schools has a policy in place whereby hiring managers, in conjunction with HR staff, are required
to sign off on all eligibility documents required by the Corporation, including parental consent where
required. This requirement is well documented in our on-boarding procedures and HR policies and
adherence is closely monitored by our HR staff. As a result, we are confident these documents were
submitted for all members.

However, our documentation and record keeping regarding member files should be improved. To this
end, we plan to:
    Integrate recruiting, HR, and AmeriCorps functions under a single chain of supervision to
       facilitate coordination, communication, and accountability regarding member administration
    Hire an AmeriCorps Compliance Specialist to support member administration
    Integrate member file monitoring and management with our broader Finance and HR internal
       audit procedures to raise visibility and accountability regarding member files
    Revise and clarify member file policies and procedures and reiterate to key staff

We anticipate implementation by September, 2009.


Finding 7. Member contracts did not include required non-discrimination clauses on civil rights and
           equal opportunity provisions

AUDITOR RECOMMENDS THE CORPORATION:
  a) Require Citizen Schools to include the civil rights and equal opportunity provisions in its
     member contracts

CITIZEN SCHOOLS RESPONSE:
Citizen Schools has revised the member contracts to include the required clauses. Citizen Schools already
includes this provision as part of member orientation training.

We anticipate implementation by July, 2009.


Finding 8. Mid-term and end-of-term evaluations were missing or incomplete

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools strengthens its internal control policies and procedures to comply
     with the mid- and end-of-term evaluation requirements of the grant provisions. The Corporation
     should follow up to verify that the required evaluations were completed for all members.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools has a policy in place whereby member supervisors, in conjunction with HR staff, are
required to provide mid- and end-of-term evaluations to members in compliance with the grant
provisions. Due to our high rate of expansion, which sometimes outpaced our administrative
infrastructure, the evaluations were not consistently collected and documented in member files.

Citizen Schools will integrate the member evaluation process into our overall performance management
systems to facilitate tracking, compliance and documentation. In addition, see response to findings 4-6
regarding actions taken to improve member file management.




APRIL 30, 2009
PAGE 5 OF 7
We anticipate implementation by September, 2009.


Finding 9. Incomplete and late submission of enrollment and exit forms

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools strengthens its internal control policies and procedures by
     completing and submitting enrollment and exit forms on a timely basis.

CITIZEN SCHOOLS RESPONSE:
Due to our high rate of expansion, which sometimes outpaced our administrative infrastructure, timely
submission of member paperwork has sometimes suffered in the past.

Citizen Schools is strengthening its internal controls, policies and procedures regarding timely
completion and submission of enrollment and exit forms to ensure forms are processed and approved
within the deadline. The changes highlighted in the response to Findings 4-6 will address this issue, in
particular the additional administrative support provided by the addition of the AmeriCorps Compliance
Specialist.

We anticipate implementation by September, 2009.


Finding 10. Service hours were recorded by members before contracts were signed

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools permits only those persons meeting the criteria of an AmeriCorps
     member to record hours of service. The Corporation should follow up to ensure compliance.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools will more closely monitor member contract compliance and clarify policies regarding
hours of service with key staff, including member supervisors.

The changes highlighted in the response to Findings 4-6 will address this issue, in particular the
additional administrative support provided by the addition of the AmeriCorps Compliance Specialist.

We anticipate implementation by September, 2009.


Finding 11. Member timesheets contained irregularities

AUDITOR RECOMMENDS THE CORPORATION:
  a) Require Citizen Schools to strengthen its procedures to ensure that the review and approval of
     service hours is recorded on timesheets, and that timesheets are signed by members and
     supervisors in a timely manner.

CITIZEN SCHOOLS RESPONSE:
We agree that accurate tracking of member service hours is essential. Historically, we used a
spreadsheet-based time tracking system for members service hours. This has created difficulties as we
have grown rapidly geographically and our technology and administrative infrastructure was strained.




APRIL 30, 2009
PAGE 6 OF 7
For example, some member supervisors had difficulty submitting timesheets in a timely manner because
of an inability to consistently access technology (email, fax) and thus were forced to rely upon mail.

We have since upgraded our infrastructure. Most importantly, Citizen Schools is currently piloting an
electronic timesheet system (ADP Enterprise eTime). This will allow all members to record service hours
and approvals/audit trail.

We anticipate implementation by September, 2009.


Finding 12. Lack of pre-service orientation documentation

AUDITOR RECOMMENDS THE CORPORATION:
  a) Ensure that Citizen Schools requires all members attend orientation pursuant to the AmeriCorps
     provisions.
  b) Ensures that Citizen Schools maintains adequate supporting documentation, such as New
     Member Orientation Sign-in Sheets, to substantiate attendance by members.

CITIZEN SCHOOLS RESPONSE:
Citizen Schools conducts a centralized AmeriCorps orientation every year for which we prepare
orientation materials for each member. All members are required to attend and this requirement is
enforced through our AmeriCorps Program Director.

However, Citizen Schools has not consistently maintained documentation of member attendance at these
sessions. Moving forward, we will include a list of member attendees at each session.

We anticipate implementation by July, 2009.




APRIL 30, 2009
PAGE 7 OF 7
                   APPENDIX B

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
          RESPONSE TO THE DRAFT REPORT
NATIONAL&:
COMMUNITY
SERVICE~


To:

From:                                              ants Management

Date:

Subject:       Response to OIG Draft of Agreed-Upon Procedures of Grant Awards to the
               Citizen Schools, Inc.


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grant awards to the Citizen Schools, Inc. Weare not
responding to the findings at this time. We recently received a corrective action plan from
Citizens Schools that addresses all findings. Based on our preliminary review, the grantee has
developed a very good.plan. Given the limited timeframe to respond to the draft report, we have
not had sufficient time to complete our review of the Schools' plan. We will provide our
response to the audit findings and recommendations with our management decision after we
complete our review of the Citizen Schools plan and have worked with them to resolve any
remaining issues. Given the nature of the report's findings and the responsiveness of Citizen
Schools, we expect to complete our management decision by the end of May 2009.


Cc:     William Anderson, Acting Chief Financial Officer for Finance
        Frank Trinity, General Counsel
        Kristin McSwain, Director of AmeriCorps
        Rocco Gaudio, Deputy CFO for Grants and FFMC
        Sherry Blue, Audit Resolution Coordinator




                                               1
